GENERAL SERVICES ADMINISTRATION
   OFFICE OF INSPECTOR GENERAL




             AUDIT OF GSA’S
  LIVING QUARTERS ALLOWANCE PROCESS
     REPORT NUMBER: A090103/B/F/F09009
            SEPTEMBER 4, 2009
                                   AUDIT OF GSA’S
                         LIVING QUARTERS ALLOWANCE PROCESS
                           REPORT NUMBER: A090103/B/F/F09009

                                  TABLE OF CONTENTS

                                                                            Page
EXECUTIVE SUMMARY                                                             i

INTRODUCTION

      Background                                                             1

      Objective, Scope and Methodology                                       2

RESULTS OF AUDIT

      Results in Brief                                                       3

    Finding: Guidance issued by the State Department was not consistently    3
             adhered to by GSA while administering the Living Quarters
             Allowance process.
                                                                              
CONCLUSION                                                                   5

RECOMMENDATIONS                                                              5

MANAGEMENT’S RESPONSE                                                        5

MANAGEMENT CONTROLS                                                          5

APPENDIX A: REPORT DISTRIBUTION                                              A-1
                                                        AUDIT OF GSA’S
                                              LIVING QUARTERS ALLOWANCE PROCESS
                                                REPORT NUMBER: A090103/B/F/F09009

                                                               EXECUTIVE SUMMARY
Purpose

The objective of the audit was to determine whether the General Services Administration (GSA)
is in compliance with the Department of State Standard Regulations (DSSR) Section 130: Living
Quarters Allowance.

Background

The Living Quarters Allowance (LQA) process is governed by DSSR Section 130, which
authorizes the payment of an LQA grant for the annual cost of suitable living quarters for the
employee and his/her family living abroad. The LQA rates are designed to cover substantially
all of the average employee’s costs for rent, heat, light, fuel, gas, electricity, water, local taxes,
insurance required by law, and agent’s fees required by law or custom. DSSR Section 130 also
stipulates that an employee shall receive the lesser of the maximum living quarters allowance
rate that is authorized by the State Department or an estimation of the actual living expenses.
GSA employees stationed outside the Continental United States, who purchase or rent living
quarters, are eligible to receive an LQA and are required to follow DSSR 130 when processing
an LQA request. In Fiscal Year (FY) 2008, GSA had 20 employees living abroad whose LQA
totaled $657,947.

The Office of Inspector General’s (OIG) audit of the LQA process was in response to a request
by the Office of the Chief Financial Officer (OCFO). Management noted in previous years that
the former Federal Technology Service (FTS) and Federal Supply Service (FSS) were
inconsistent in determining the initial LQA disbursement amounts (i.e., maximum allowed
versus supported cost estimate). This inconsistency resulted in some employees owing GSA at
the end of their respective reconciliation period.

The LQA process for the Federal Acquisition Service (FAS)1 is administered by the Mid-
Atlantic Region (Region 3) and the Pacific Rim Region (Region 9). Both regions have personnel
designated as coordinators, who are responsible for assisting FAS employees receiving an LQA.
The Mid-Atlantic Region is responsible for employees living in Europe (Italy and Germany),
while the Pacific Rim Region assists FAS employees living in Asia (Japan and Korea). The
coordinators’ responsibilities include processing LQA applications and reconciliation packages
                                                            
1
  FTS and FSS operated as separate entities before being merged to create the new Federal Acquisition Service
(FAS) on October 6, 2006. 


                                                                       i
before they are sent to the National Payroll Branch (NPB) for disbursement. The NPB, located
in Kansas City, is responsible for processing all LQA applications, annual reconciliation
packages, and disbursements.

Results in Brief

Our audit disclosed that GSA did not consistently adhere to DSSR 130 when processing LQA
applications and reconciliation packages. Specifically, we noted the following:

   •   Required documentation for processing LQAs was nonexistent and/or incomplete;
   •   An annual reconciliation package was not submitted; and,
   •   Rent expense claimed for a personally owned living quarters could not be verified.

Recommendations

We recommend that the OCFO, in consultation with FAS, Public Buildings Service (PBS) and
the Office of the Chief Information Officer (OCIO):

   1. Ensure that all participants of the LQA process are in compliance with DSSR Section 130
      by developing and implementing an agency-wide policy that governs the LQA process to
      include roles and responsibilities, and specific procedures designed to ensure that the
      LQA application and reconciliation processes are properly reviewed and monitored by
      both designated regional coordinators and NPB officials before any disbursements are
      authorized.
   2. Review the reconciliation packages for the employee who has not reconciled since 2002
      and the employee who received an LQA for personal living quarters to determine
      whether any overpayments were paid, and if necessary, recoup any excess LQA
      payments.




                                               ii
                                                        AUDIT OF GSA’S
                                              LIVING QUARTERS ALLOWANCE PROCESS
                                                REPORT NUMBER: A090103/B/F/F09009


                                                               INTRODUCTION
Background

The Living Quarters Allowance (LQA) process is governed by DSSR Section 130, which
authorizes the payment of an LQA grant for the annual cost of suitable living quarters for the
employee and his/her family living abroad. The LQA rates are designed to cover substantially
all of the average employee’s costs for rent, heat, light, fuel, gas, electricity, water, local taxes,
insurance required by law, and agent’s fees required by law or custom. DSSR Section 130 also
stipulates that an employee shall receive the lesser of the maximum living quarters allowance
rate that is authorized by the State Department or an estimation of the actual living expenses.
GSA employees stationed outside the Continental United States, who purchase or rent living
quarters, are eligible to receive an LQA and are required to follow DSSR 130 when processing
an LQA request. In Fiscal Year (FY) 2008, GSA had 20 employees living abroad whose LQA
totaled $657,947.

The Office of Inspector General’s (OIG) audit of the LQA process was in response to a request
by the Office of the Chief Financial Officer (OCFO). Management noted in previous years that
the former Federal Technology Service (FTS) and Federal Supply Service (FSS) were
inconsistent in determining the initial LQA disbursement amounts (i.e., maximum allowed
versus supported cost estimate). This inconsistency resulted in some employees owing GSA at
the end of their respective reconciliation period.

The LQA process for the Federal Acquisition Service (FAS)2 is administered by the Mid-
Atlantic Region (Region 3) and the Pacific Rim Region (Region 9). Both regions have personnel
designated as coordinators, who are responsible for assisting FAS employees receiving an LQA.
The Mid-Atlantic Region is responsible for employees living in Europe (Italy and Germany),
while the Pacific Rim Region assists FAS employees living in Asia (Japan and Korea). The
coordinators’ responsibilities include processing of the LQA applications and reconciliation
packages before they are sent to the National Payroll Branch (NPB) for disbursement. The NPB,
located in Kansas City, is responsible for processing all LQA applications, annual reconciliation
packages, and disbursements.


                                                            
2
  FTS and FSS operated as separate entities before being merged to create the new Federal Acquisition Service
(FAS) on October 6, 2006. 


                                                                    1
Objectives, Scope, and Methodology

The objective of the audit was to determine whether GSA is in compliance with DSSR Section
130. To accomplish the audit objective, we included all 20 GSA employees who received an
LQA during FY 2008 (October 1, 2007 through September 30, 2008) in our test work.

We obtained and reviewed applicable Federal guidance that regulates the LQA process – the
DSSR Section 130. In addition, we interviewed regional coordinators and NPB officials
responsible for processing LQA applications and payments. Finally, we obtained and reviewed
supporting documentation (i.e., SF-1190s, DSSR-130s, and receipts and financial data) relating
to the test items from NPB and regional coordinators to ensure compliance with the DSSR 130.

The audit field work, including site visits, regional correspondence, research, and analysis was
conducted during the period of January 2009 to May 2009 and was conducted in accordance with
Generally Accepted Government Auditing Standards (GAGAS). Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our finding and conclusion based on our audit
objective.




                                               2
                                  RESULTS OF AUDIT

Results in Brief

Our audit disclosed that GSA did not consistently adhere to DSSR 130 when processing LQA
applications and reconciliation packages. Specifically, we noted the following:

   •   Required documentation for processing LQAs were nonexistent and/or incomplete;
   •   An annual reconciliation package was not submitted; and,
   •   Rent expense claimed for a personally owned living quarters could not be verified.


Audit Finding

Guidance issued by the State Department was not consistently adhered to by GSA while
administering the LQA process.

DSSR Section 132.5 “Costs” specifically requires the following with regards to the LQA
application and reconciliation process:

       Employees shall submit written estimates of costs, or actual costs if they are
       known, to the head of agency on Section 960 LQA Annual/Interim Expenditures
       Worksheet attached to the SF-1190, Foreign Allowances Application, Grant, and
       Report, whenever an LQA grant commences. Thereafter, each employee shall
       show the actual annual expenses of rent and utilities, supported by receipts or
       other satisfactory evidence, whenever requested by the officer designated to grant
       allowances, the Department of State, or other responsible authority. (See
       also Sections 077.2 and 134.16.)

With respect to personally owned living quarters, DSSR Section 136 “Personally Owned
Quarters” states the following:

       When quarters occupied by an employee are owned by the employee or the
       spouse, or both, an amount up to 10 percent of original purchase price (converted
       to U.S. dollars at original exchange rate) of such quarters shall be considered the
       annual rate of his/her estimated expenses for rent. Only the expenses for heat,
       light, fuel, (including gas and electricity), water, garbage and trash disposal and
       in rare cases land rent, may be added to determine the amount of the employee's
       quarters allowance in accordance with Section 134. The amount of the rental
       portion of the allowance (up to 10 percent of purchase price) is limited to a
       period not to exceed ten years at which time the employee will be entitled only to
       above utility expenses, garbage and trash disposal, plus land rent.



                                                3
During our audit of GSA’s LQA process, we noted that GSA did not consistently adhere to
DSSR 130. Specifically, we noted instances in which SF-1190s, Foreign Allowances
Application, Grant, and Report, used to initiate LQA payments were nonexistent. We also noted
instances in which the initial SF-1190s and annual reconciliation packages did not contain all
required signatures. According to the response the OCFO submitted to our Notification of
Findings, the regional coordinators and NPB officials were interpreting which office is
responsible for certifying the SF-1190s differently.

In addition, we noted that one employee, who works for the Office of the Chief Information
Officer (OCIO), did not reconcile LQA related expenses between 2002 and 2009. NPB
disbursed approximately $160,000 in LQA payments to the employee during this period;
however, could not provide any supporting documentation to substantiate the total amount
disbursed.

Lastly, we noted that another employee did not have sufficient documentation to substantiate the
validity of the “rent” expenses claimed for a personally owned living quarters. This employee
claimed an annual rent expense of $16,500 over the past eight years for a grand total of
$132,000. Based on our review of the documentation submitted, the purchase price of the
property appears to be approximately $120,000, using the original exchange rate3; therefore, the
employee should have been claiming $12,000 a year. Consequently, it appears that the employee
received an overpayment of approximately $36,000 [($16,500 – $12,000)*8 years].

Based on our testing, we concluded that these conditions exist because GSA does not have an
agency-wide policy stipulating the roles and responsibilities, and specific procedures required to
properly administer the LQA application and reconciliation process throughout all services and
staff offices. Furthermore, this illustrates a lack of oversight regarding LQA disbursements at
NPB.

Without sufficient documentation to process LQA applications and reconciliation packages,
there is no reasonable assurance that LQA payments disbursed to employees are valid.




                                                            
3
    To calculate the original purchase price of the home, we used the following formula:

    190.000.000 lire (Purchase price per the deed) + 7.600.000 (4% IVA tax) = 197.600.000 lire

    197.600.000 lire (Purchase price in lire) / 1.644 (original exchange rate) = $120,194.65 


                                                               4
                                       CONCLUSION

Our audit of GSA’s LQA process found instances where required documentation for processing
LQAs were nonexistent and/or incomplete; an annual reconciliation package was not submitted;
and rent expense claimed for a personally owned living quarters could not be verified.
Consequently, we conclude that GSA did not consistently adhere to the requirements set forth by
DSSR 130.

                                 RECOMMENDATIONS
We recommend that the OCFO, in consultation with FAS, Public Buildings Service (PBS) and
OCIO:

   1. Ensure that all participants of the LQA process are in compliance with DSSR Section 130
      by developing and implementing an agency-wide policy that governs the LQA process to
      include roles and responsibilities, and specific procedures designed to ensure that the
      LQA application and reconciliation processes are properly reviewed and monitored by
      both designated regional coordinators and NPB officials before any disbursements are
      authorized.
   2. Review the reconciliation packages for the employee who has not reconciled since 2002
      and the employee who received an LQA for personal living quarters to determine
      whether any overpayments were paid, and if necessary, recoup any excess LQA
      payments.



                             MANAGEMENT’S RESPONSE

Management’s response dated August 25, 2009 states they concur with the audit finding and
recommendations noted in the audit report.


                              MANAGEMENT CONTROLS

The objective of our audit was to determine whether GSA is in compliance with DSSR Section
130. As part of the audit, we reviewed the controls over the LQA application and maintenance
process, as well as the reconciliation process. During our audit, we noted concerns regarding the
completeness and the maintenance of an audit trail of the forms required to initiate and validate
LQA payments. In addition, we identified instances where documented authorization for LQA
payments did not exist. We have included recommendations in this report to address these
issues.



                                                5
                                  AUDIT OF GSA’S
                        LIVING QUARTERS ALLOWANCE PROCESS
                          REPORT NUMBER: A090103/B/F/F09009


                                             APPENDIX A



Report Distribution*

Office of the Chief Financial Officer (B)

Internal Control and Audit Division (BEI)

Audit Planning, Policy and Operations Staff (JAO)

Assistant Inspector General for Auditing (JA)

Assistant Inspector General for Investigations (JI)

Inspector General (J)

Deputy Inspector General (JD)

Special Assistant for Communications and Congressional Affairs (JD)

Executive Assistant for Management (JD)


* Audit report distributed electronically.

 




                                                A-1
